CERTIFICATE OF WORD COUNT
NO. 19-870
Jeana K. Reinbold, Chapter 7 Trustee of the Estate of 180 Equipment, LLC,,
Petitioner,
v.
First Midwest Bank,
Respondent.
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the AMICUS BRIEF OF WILLIAM
H. HENNING AND JOHN T. MCGARVEY contains 5952 words, including the parts of the brief that are
required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
February 12, 2020

SCP Tracking: Senn-401 S. Fourth Street, Suite 1200-Cover Cream

